No. 19In the

Supreme Court of the United States
WAYNE M. KLOCKE,
INDEPENDENT ADMINISTRATOR OF
THE ESTATE OF THOMAS KLOCKE,
Petitioner,
v.
THE UNIVERSITY OF TEXAS AT ARLINGTON,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI
Kenneth B. Chaiken
Robert Chaiken
Chaiken & Chaiken, P.C.
5801 Tennyson Parkway,
Suite 440
Plano, Texas 75024
(214) 265-0250

Jonathan T. Suder
Counsel of Record
Jeffrey D. Parks
Friedman, Suder & Cooke, P.C.
604 East Fourth Street,
Suite 200
Fort Worth, Texas 76102
(817) 334-0400
jts@fsclaw.com

Counsel for Petitioner
294006

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Cong ress pa ssed T it le I X of t he Educat ion
Amendments of 1972 (“Title IX”) to provide a remedy to
students attending publicly funded educational institutions
who suffer gender-motivated discrimination in the form of
exclusion from, participation in, denial of the benefits of, or
discrimination under any education program or activity.
In conflict with the defined framework of a Title IX
enforcement claim that uniformly has been approved by
each of the First, Second, Sixth, Seventh and Eleventh
Circuits, the Fifth Circuit becomes the first court of
appeals to hold that where a student suffers disciplinary
action that indisputably includes an exclusion of the student
from educational programming, a Title IX enforcement
action is unavailable if the claimant does not prove the
exclusion complained of was “clearly unreasonable in
light of the known circumstances.” The Fifth Circuit
compounded its conflict with the other Circuits by holding
that a court is authorized to determine that an exclusion
from educational programming as a disciplinary sanction,
is “not clearly unreasonable as a matter of law” because
the university has offered reasons for it other than sex or
gender discrimination.
The question presented is whether the Fifth
Circuit incorrectly implemented Title IX in a case
arising from university discipline by imposing upon a
Title IX plaintiff a burden to prove the exclusion from
educational programming was clearly unreasonable in
light of the known circumstances; and, holding that a
non-discriminatory reason for the exclusion of a student
from educational programming allows a court to find the

ii
exclusion not clearly unreasonable as a matter of law,
thereby exempting the university from a Title IX claim
exposure.

iii
PARTIES TO THE PROCEEDING BELOW
Petitioner is Way ne M. K locke, Independent
Administrator of the Estate of Thomas Klocke, the
appellant below and plaintiff in the district court.
Respondent is the University of Texas at Arlington,
the appellee below and defendant in the district court.
Nicholas Matthew Watson was a defendant in the
district court proceeding but was dismissed with prejudice
before entry of the final judgment now at issue. He was
not a party to the proceedings in the court of appeals that
are at issue now.

iv
RELATED PROCEEDINGS
United States District Court (N.D. Tex.):
Wayne M. Klocke, Independent Administrator of
the Estate of Thomas Klocke v. The University of
Texas at Arlington, No. 4:17-CV-00285-A (June
8, 2018 memorandum opinion and order granting
The University of Texas at Arlington’s motion for
summary judgment and final judgment dismissing
Petitioner’s action against The University of Texas
at Arlington).
United States Court of Appeals (5th Circuit):
Wayne M. Klocke, Independent Administrator
of the Estate of Thomas Klocke, Appellant v.
The University of Texas at Arlington, Appellee,
No. 18-10857 (September 10, 2019 decision and
opinion affirming summary judgment dismissal of
Petitioner’s action against The University of Texas
at Arlington).
United States District Court (N.D. Tex.):
Wayne M. Klocke, Independent Administrator of
the Estate of Thomas Klocke v. The University of
Texas at Arlington and Nicholas Matthew Watson,
No. 4:17-CV-00285-A (July 25, 2017 order granting
Defendant Nicholas Matthew Watson’s motion to
dismiss).

v
United States Court of Appeals (5th Circuit):
Wayne M. Klocke, Independent Administrator of
the Estate of Thomas Klocke, Appellant v. Nicholas
Matthew Watson, Appellee, No. 17-11320 (August
23, 2019 decision and opinion reversing dismissal
of claims against Nicholas Matthew Watson, and
remanding for further proceedings).

vi
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING BELOW  . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
INTRODUCTION AND STATEMENT OF THE
CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A. This case presents an exceptionally
important, recurring legal issue involving
the deprivation of a liberty interest and the
limits, if any, of Congress’ intent to allow
broad judicial remediation under Title IX  . . . . . 2
B. Summary of the pertinent case facts . . . . . . . . . . 3

vii
Table of Contents
Page
C. Summary of the proceedings . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THIS PETITION . . . . . 7
A. The Fifth Circuit’s decision creates a clear
conf lict among the Circuits regarding
the framework for analyzing a Title IX
enforcement action arising from university
disciplinary action  . . . . . . . . . . . . . . . . . . . . . . . . . 9
B. The decision below establishes a judicially
created exemption from Title IX liability
that no other court has adopted, based
upon a claim analysis standard that
applies only in a deliberate indifference
context . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
C. If this Court imposes a burden upon Title
IX claimants to prove that a disciplinary
sanction in the form of being excluded from
educational programming was “clearly
unreasonable under the circumstances”,
it should find that whether the decision
was “clearly unreasonable” or not, is a
question of fact, rejecting the Fifth Circuit’s
holding that it is a question of law  . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

viii
TABLE OF APPENDICES
Page
A ppendix A — opinion of the
united states court of appeals
FOR T H E FI F T H CIRCU I T, FILED
SEPTEMBER 10, 2019 . . . . . . . . . . . . . . . . . . . . . . . . 1a
Appendix b — memorandum opinion
and order of the united states
district court for the Northern
district of texas, fort worth
division, filed june 7, 2018 . . . . . . . . . . . . .  17a
Appendix C — DENIAL OF REHEARING
of the united states court of
appeals FOR THE FIFTH CIRCUIT,
FILED OCTOBER 20, 2019 . . . . . . . . . . . . . . . . . . . 38a

ix
TABLE OF CITED AUTHORITIES
Page
CASES:
Cannon v. Univ. of Chicago,
441 U.S. 677 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
City of Monterey v.
Del Monte Dunes at Monterey, Ltd.,
526 U.S. 697 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Davis v. Monroe Cty. Bd. of Educ.,
526 U.S. 629 (1999) . . . . . . . . . . . . . . . . . . . . . . . . 12, 13
Doe v. Baum,
903 F.3d 575 (6th Cir. 2018) . . . . . . . . . . . . . . . . .  10, 14
Doe v. Colgate Univ. Bd. of Trs.,
760 F. App’x 22 (2nd Cir. 2019)  . . . . . . . . . . . . . .  10, 13
Doe v. Columbia University,
831 F.3d 46 (2nd Cir. 2016) . . . . . . . . . . . . . . . . . .  10, 13
Doe v. Miami University,
882 F.3d 579 (6th Cir. 2018) . . . . . . . . . . . . . . . 10, 13-14
Doe v. Purdue University,
928 F.3d 652 (7th Cir. 2019) . . . . . . . . . . . . . . . . . . . . 10
Doe v. Valencia College,
903 F.3d 1220 (11th Cir. 2018) . . . . . . . . . . . . .  9, 10, 14

x
Cited Authorities
Page
Franklin v. Gwinnett County Public Schools,
503 U.S. 60 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Goss v. Lopez,
419 U.S. 565 (1975)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Haidak v. Univ. of Mass.-Amherst,
933 F.3d 56 (1st Cir. 2019)  . . . . . . . . . . . . . . . . . .  10, 13
Jackson v. Birmingham Bd. of Educ.,
544 U.S. 167 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Yusuf v. Vassar College,
35 F.3d 709 (2nd Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . 9
STATUTES AND OTHER AUTHORITIES
28 U.S.C. 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. Civ. Proc. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . 6
Marie T. Reilly, Due Process in University
of Discipline Cases, 120 Penn. St. L.
Rev. 1001 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Pub.L. 92-318, Title IX, § 901, June 23, 1972,
86 Stat. 373 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Pub.L. 93-568, § 3(a), Dec. 31, 1974, 88 Stat. 1862 . . . . 1-2

xi
Cited Authorities
Page
Pub.L. 94-482, Title IV, § 412(a), Oct. 12, 1976,
90 Stat. 2234  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Pub.L. 96-88, Title III, § 301(a)(1), Title V, § 507,
Oct. 17, 1979, 93 Stat. 677, 692 . . . . . . . . . . . . . . . . . . . 2
Pub.L. 99-514, § 2, Oct. 22, 1986, 100 Stat. 2095  . . . . . . 2
Title IX of the Education Amendments of 1972,
20 U.S.C, Section 1681(a) . . . . . . . . . . . . . . . . . . passim

1
Petition for a Writ of Certiorari
Wayne M. Klocke respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Fifth Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals (App. 1a) is
reported at 938 F.3d 204. The district court’s order and
opinion granting summary judgment (App. 17a) is not
reported, but available at 2018 WL 2744972.
JURISDICTION
The judgment of the court of appeals was entered on
September 10, 2019. A petition for rehearing was denied
on October 21, 2019. (App. 38a). The jurisdiction of this
Court is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED
Title IX of the Education Amendments of 1972, 20
U.S.C, Section 1681(a), provides:
No person in the United States shall, on the basis
of sex, be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under any
education program or activity receiving Federal financial
assistance, except that1:
1. The nine (9) expressly enumerated exceptions are not
applicable in this case, or to the issues presented. (Pub.L. 92-318,
Title IX, § 901, June 23, 1972, 86 Stat. 373; Pub.L. 93-568, § 3(a),

2
...
(c) “Educational institution” defined
For purposes of this chapter an educational institution
means any public or private preschool, elementary,
or secondary school, or any institution of vocational,
professional, or higher education, except that in the case
of an educational institution composed of more than one
school, college, or department which are administratively
separate units, such term means each such school, college,
or department.
INTRODUCTION AND STATEMENT
OF THE CASE
A. This case presents an exceptionally important,
recurring legal issue involving the deprivation of a
liberty interest and the limits, if any, of Congress’
intent to allow broad judicial remediation under
Title IX.
Accusations of threat, ha rassment or sexual
misconduct on university campuses are serious, and the
ramifications of disciplinary action arising from these
kinds of allegations are long-lasting and stigmatizing.
Students’ interests in preserving their educational status
and reputations in the face of such serious misconduct
allegations are compelling, as are the interests of
Dec. 31, 1974, 88 Stat. 1862; Pub.L. 94-482, Title IV, § 412(a), Oct.
12, 1976, 90 Stat. 2234; Pub.L. 96-88, Title III, § 301(a)(1), Title
V, § 507, Oct. 17, 1979, 93 Stat. 677, 692; Pub.L. 99-514, § 2, Oct.
22, 1986, 100 Stat. 2095.)

3
universities in responding to legitimate complaints of
serious misconduct. The tension between these competing
interests is the subject of commentator and court decisions
nationally, but most often in the context of evaluating
whether or not due process has been sufficiently accorded
to accused students, and their accusers. 2
In what has become an avalanche of litigation
calling for its correct application, Title IX has been
recognized by the First, Second, Fifth, Sixth, Seventh,
and Eleventh Circuits as the available enforcement action
when disciplinary action results in an exclusion from
educational programming or a deprivation of the benefits
of such programming, and the exclusion or deprivation is
motivated by gender; i.e., there is a plausible inference of
gender motivation. These Circuits, excluding the Fifth,
apply a uniform framework for analyzing such a claim,
and a uniform claimant’s burden of proof. The Fifth
Circuit stands alone in imposing a new burden of proof
and judicially creating a limitation on a defendant’s Title
IX claim exposure that no other court has adopted or
recognized.
B. Summary of the pertinent case facts.
The legal significance and seriousness of this case is
difficult to overstate. This case stems from a brief, non2. E.g., Marie T. Reilly, Due Process in University of
Discipline Cases, 120 Penn. St. L. Rev. 1001 (2016); American
College of Trial Lawyers Position Statement Regarding Campus
Sexual Assault Investigations, https://w w w.actl.com/docs/
default-source/default-document-library/position-statementsand-whitepapers/task force_ allegations_of_sexual_violence_
white_paper_final.pdf (March 2017).

4
violent encounter between Petitioner’s son, Thomas, and
another male student at the beginning of a class session
in a course they both needed to complete to graduate
that summer. The only other witness to any aspect of the
encounter neither saw nor reported anything to indicate
that something threatening or harassing had taken place
between the two students.
After the four-hour class the other student complained
to a university official about Thomas. Calling Thomas an
aggressor, the complaining student alleged that “out of the
blue” near the start of the class Thomas typed anti-gay
comments on his laptop computer and showed them to
him, which upset the student because he is gay. He further
alleged that after he spoke up by telling Thomas he was
gay, Thomas used a defamatory term for gays and told him
he should consider killing himself. No one witnessed any
of the written or verbal communications between them.
Upon receipt of the complaint allegations the
university official receiving it immediately excluded
Thomas from the class. Thomas was never interviewed or
afforded an opportunity to be heard before the exclusion
was implemented. He was never allowed to return to the
class.
When confronted with the complaint against him
Thomas denied the allegations; in fact, he reported
that the complaining student, who he did not know, had
initiated the communication that morning by flirtatiously
telling Thomas he was beautiful and refusing to stop
when Thomas asked him to. Thomas denied making any
statements about homosexuality during the encounter and
he denied saying the other student should consider killing

5
himself. And from the commencement of the putative
investigation, Thomas was very focused on his urgent
need to return to class because class participation was an
essential component of the grade to be received and was
necessary to earn a successful course grade.
The university official who received the complaint
viewed it as invoking the university’s Title IX investigation
procedures, but the matter was not investigated or
handled pursuant to those procedures. Instead, a single
administrator acted as investigator, prosecutor, and final
decision-maker. He concluded there was no evidence of a
threat of any kind and confirmed in an email at the end
of his investigation that he: a) could find no corroboration
of the complaining student’s allegations or corroboration
of the complaint’s alleged facts; and, b) did not think he
had enough to keep Thomas from attending the class.
Despite these findings, the administrator nevertheless
kept Thomas’s class exclusion sanction in effect through
the duration of the class term.
On the final day of the term after attempting a portion
of the final exam for the course, Thomas died by suicide.
In a representative capacity Petitioner filed a Title
IX enforcement action against the university alleging
Thomas’s disciplinary exclusion from educational
programming was motivated by his gender. Petitioner
alleged a causal connection between the class exclusion
and the mental anguish it caused Thomas that was so
severe, he chose to end his life.

6
C. Summary of the proceedings.
Finding that Petitioner stated a claim upon which relief
can be granted the district court denied the university’s
Federal Rule of Civil Procedure 12(b)(6) motion to
dismiss. After discovery, the university and Petitioner
filed cross motions for summary judgment. The district
court granted the university’s motion. Regarding whether
there was a plausible inference of gender motivation, the
court recognized that “[a]t best, sex played a tangential
role in the university’s disciplinary decision excluding
Thomas from the course.” (App. 30a). Petitioner’s motion
was denied, and he appealed the dismissal of the case to
the Fifth Circuit Court of Appeals.
With regard to the exclusion from educational
programming complained of, the court of appeals
confirmed as a threshold matter “these facts indicate
that Klocke experienced a ‘concrete negative effect’ on his
‘ability to receive an education,’” explicitly rejecting the
university’s argument that as a matter of law Klocke was
never deprived of an educational opportunity or benefit
under Title IX. (App. 7a). The court further observed
that Petitioner presented a Title IX claim within the
framework recognized by other circuits, asserting an
erroneous outcome and selective enforcement claim, but
waived any deliberate indifference or archaic assumption
arguments. (App. 8a).
In affirming the dismissal the court concluded that
a Title IX plaintiff must show the school’s response was
“clearly unreasonable in light of the known circumstances”
and concluded further that a court is authorized to identify
such a response as not “clearly unreasonable,” as a matter
of law. (App.7a-8a). The court held that because the

7
university had reasonable, non-discriminatory reasons for
excluding Thomas from class, an inference of gender bias
in these circumstances would necessarily be speculative.
(App. 14a).
REASONS FOR GRANTING THIS PETITION
In accordance with this Court’s Rule 10(a) this
case is a perfect vehicle for resolving a clear conflict
among the Circuits regarding the correct framework
for analyzing a Title IX enforcement action arising from
a disciplinary sanction that involves an exclusion from
educational programming. The proper construction and
interpretation of Title IX is a recurring question that has
divided the lower courts. Given the prevalence of Title IX
cases arising out of disciplinary decisions, guidance from
this Court is necessary and warranted.
In addition, the novel decision of the Fifth Circuit
significantly limits or narrows Title IX claim relief 3 by
judicially creating a previously unrecognized burden of
proof and a standard for dismissing a case as a matter
of law that is not encompassed within any of the nine
(9) expressly enumerated exceptions to Title IX liability
intended by Congress, or recognized by any other
court. This limitation or exclusion from liability renders
ineffective, a Title IX claim.4
3. The court expressly recognized, however, that the
Supreme Court has “consistently interpreted Title IX’s private
cause of action broadly, to encompass diverse forms of intentional
sex discrimination”, citing Jackson v. Birmingham Bd. of Educ.,
544 U.S. 167, 183, (2005). (App. 8a).
4. Where legal rights have been invaded, and a federal
statute provides for a general right to sue for such invasion, federal

8
Title IX enforcement claims arise from the deprivation
of liberty interests. In Goss v. Lopez, 419 U.S. 565 (1975),
the Supreme Court held that a public high school student
subject to a ten-day suspension had a property and
liberty interest in education protected by the Fourteenth
Amendment and was entitled to notice and an opportunity
to be heard before imposition of the sanction.
Across the country, scores of federal courts are being
called upon to adjudicate cases arising out of university
disciplinary sanctions that implicate Title IX. Most cases
challenging university disciplinary action address whether
pre-discipline minimum due process standards have been
met, in the face of rampant confusion among universities,
the Department of Education and courts about what level
of due process is required within university disciplinary
proceedings. Post discipline, the Circuits uniformly hold
that disciplined students have a right to judicially enforce
Title IX when the discipline rises to the level of a Title IX
exclusion from educational programming, or deprivation
of the benefits of such programming.
courts may use any available remedy to make good the wrong
done. Franklin v. Gwinnett County Public Schools, 503 U.S. 60,
66 (1992). In Franklin, this Court expressed that after Cannon
v. Univ. of Chicago, 441 U.S. 677 (1979) (Title IX is enforceable
through an implied right of action) a more traditional method of
statutory analysis is possible, because Congress was legislating
with full cognizance of that decision, explaining further, “[o]ur
reading of the two amendments to Title IX enacted after Cannon
leads us to conclude that Congress did not intend to limit the
remedies in a suit brought under Title IX.” Franklin, supra. at
1036. The Court also observed “[t]he power to enforce implies the
power to make effective the right of recovery afforded by the Act.
Id. at 1034 (emphasis in opinion, citations omitted).

9
The issue, however, is that the courts do not have
a uniform framework for addressing such Title IX
enforcement claims. As obser ved recently by the
Eleventh Circuit, “[n]either the Supreme Court or this
Court has established a framework for analyzing Title
IX challenges to university discipline proceedings.” Doe
v. Valencia College, 903 F.3d 1220, 1236 (11th Cir. 2018).
This case underscores the need for a level playing field
in all Circuits. The Court should provide a uniform and
certain framework for analyzing Title IX claims arising
in this important context.
A. The Fifth Circuit’s decision creates a clear conflict
among the Circuits regarding the framework for
analyzing a Title IX enforcement action arising
from university disciplinary action.
In 1994, the Second Circuit held, looking at analogous
Titles VI and VII, “we may safely say that Title IX bars
the imposition of university discipline where gender is
a motivating factor in the decision to discipline.” Yusuf
v. Vassar College, 35 F.3d 709, 715 - 16 (2nd Cir. 1994)
(citations omitted). The Yusuf court explained:
[P]laintiffs attacking a university disciplinary
proceeding on grounds of gender bias (under
Title IX), can be expected to fall within two
categories. In the first category, the claim is
that the Plaintiff was innocent and wrongfully
found to have committed an offense. In the
second category, the Plaintiff alleges selective
enforcement. Such a claim asserts that
regardless of the student’s guilt or innocence,
the severity of the penalty and/or the decision

10
to initiate the proceeding was affected by the
student’s gender.
Id.
The Second Circuit has since re-confirmed the
existence of a Title IX enforcement claim arising out of
university discipline and has been joined by the First,
Sixth and Eleventh Circuits in uniformly recognizing
erroneous outcome or selective enforcement claim
theories. See, Haidak v. Univ. of Mass.-Amherst, 933
F.3d 56, 74 (1st Cir. 2019); Doe v. Columbia University,
831 F.3d 46, 55 (2nd Cir. 2016); Doe v. Colgate Univ. Bd.
of Trs., 760 F. App’x 22, 25 (2nd Cir. 2019); Doe v. Miami
University, 882 F.3d 579 (6th Cir. 2018); Doe v. Baum, 903
F.3d 575, 578 (6th Cir. 2018); and Valencia College, supra.,
903 F.3d at 1236.
In each of the above-cited cases these courts agree
that to establish erroneous outcome, a plaintiff must show
a causal connection between the outcome and gender,
and point to particular facts sufficient to cast some
articulable doubt on the accuracy of the outcome of the
disciplinary proceeding. ibid. And they uniformly agree
that to show selective enforcement a plaintiff must show
that regardless of culpability, the severity of the penalty
or the decision to initiate proceedings was affected by the
excluded student’s gender. ibid.
In contrast, in Doe v. Purdue University, 928 F.3d 652
(7th Cir. 2019) the Seventh Circuit confirmed the existence
of a Title IX claim arising from a disciplinary action but
explained: “we see no need to superimpose doctrinal tests
on the statute”, explaining further “we prefer to ask the
question more directly: do the alleged facts, if true, raise

11
a plausible inference that the university discriminated
against John “on the basis of sex.”
In all of the cited cases the courts also confirm,
uniformly, that the test for whether Title IX discrimination
has occurred is whether the facts taken as a whole, create a
plausible inference of discrimination based on sex. See id.
None of these cited cases or any other Petitioner can
find require proof by a Title IX plaintiff that gender bias
or gender was the sole cause or sole motivation for the
exclusionary disciplinary sanction. None require a plaintiff
to prove that the exclusion from educational programming
was clearly unreasonable under the circumstances. None
excuse or exempt a university from Title IX liability when
they have excluded, deprived or discriminated in violation
of Title IX, but offered a plausible non-discriminatory
reason. None authorize a court to accordingly conclude
that as a matter of law, the sanction (even if it is Title IX
exclusion or deprivation), is not clearly unreasonable.
B. The decision below establishes a judicially created
exemption from Title IX liability that no other court
has adopted, based upon a claim analysis standard
that applies only in a deliberate indifference context.
Petitioner waived any deliberate indifference
arguments, so the case was not decided under that liability
theory. (App. 8a). The court of appeals recognized that
there was some evidence of articulable doubt on the part
of the university investigator — calling them express
reservations—about the disciplinary sanction that was
imposed upon Thomas in the form of an exclusion from
educational programming. (App. 9a). Rather than crediting
that evidence in favor of Petitioner in its de novo review of

12
a summary judgment dismissal of the erroneous outcome
claim, the court discredited that evidence, essentially
finding it irrelevant because the investigator’s ultimate
punishment decision was not “clearly unreasonable.”
(App. 11a-12a). “In sum, UTA’s disciplinary decisions were
reasonable and justifiable on non-discriminatory grounds.
And inference of gender bias in these circumstances would
necessarily be speculative.” (App. 13a- 14a).
The court’s decision to affirm or reverse the district
court dismissal of Petitioner’s Title IX enforcement claim
clearly turned on the court’s mistaken conclusion and novel
theory that there is no reason why a court adjudicating a
Title IX case, on a summary dismissal motion, could not
identify a response as not “clearly unreasonable” as a
matter of law. (App. 7a-8a). Citing Davis v. Monroe Cty.
Bd. of Educ., 526 U.S. 629, 642 (1999) the court stated “[t]he
plaintiff must show that the school’s response was ‘clearly
unreasonable’ in light of the known circumstances,” finding
as a matter of law, the university had reasonable and nondiscriminatory reasons to exclude Petitioner’s son. (App.
12a). The court’s application of a clearly unreasonable
claim analysis drove its related conclusion that because
the disciplinary decision (an acknowledged exclusion
from the course) was reasonable and justifiable on nondiscriminatory grounds, an inference of gender bias in
these circumstances would necessarily be speculative.
(App. 14a). But the proper inquiry adopted by all other
Circuits is whether there is a plausible inference of gender
bias, not whether non-discriminatory explanations absolve
the university from Title IX liability.
The “clearly unreasonable” standard applied by the
court in reliance upon Davis does not and should not apply

13
except in a case of alleged deliberate indifference by a
school to the harassment by one student of another, and
corresponding allegation that such deliberate indifference
amounts to an exclusion from educational programming
or its benefits. Davis confirms only that the question of
whether deliberate indifference is “clearly unreasonable”
is a question of law, concluding that if deliberate
indifference is not shown to be clearly unreasonable, the
effective exclusion arising from it is not an intentional act
for purposes of Title IX liability. See, id. (holding federal
fund recipient may be liable in damages under Title IX
only for its own misconduct, and the recipient must exclude
person from participation or deny the benefits of or subject
the person to discrimination in order to be liable under
Title IX).
This case is not about an effective exclusion arising
from inaction in responding to alleged student misconduct.
It is a case alleging an actual exclusion, arising from the
affirmative actions of the university to punish alleged
misconduct by intentionally excluding the disciplined
student from educational programming.
Petitioner is not aware of any federal case imposing
the deliberate indifference-based “clearly unreasonable”
standard of review or burden of proof outside of the
context of a deliberate indifference claim. Petitioner is
unaware of any case imposing a burden by the plaintiff
to prove that the school’s exclusion decision was “clearly
unreasonable.” This includes any of the cases recognizing
the erroneous outcome or selective enforcement Title IX
claim theories. See, Haidak v. Univ. of Mass.-Amherst, 933
F.3d 56, 74 (1st Cir. 2019); Doe v. Columbia University,
831 F.3d 46, 55 (2nd Cir. 2016); Doe v. Colgate Univ. Bd.
of Trs., 760 F. App’x 22, 25 (2nd Cir. 2019); Doe v. Miami

14
University, 882 F.3d 579 (6th Cir. 2018); Doe v. Baum, 903
F.3d 575, 578 (6th Cir. 2018); and Valencia College, supra.,
903 F.3d at 1236.
On its face Title IX does not limit a claim to
those circumstances where the university has acted
unreasonably. Title IX does not provide an exception
or exemption from liability or an exclusion of the Act’s
application in cases where the alleged exclusionary
sanction imposed upon a student has been justified by
the university’s citation to non-discriminatory reasons
for imposing the particular disciplinary sanction of an
exclusion from school.
No court other than the court of appeals in this
case, has adopted a sole cause or sole factor requirement
in articulating the standards for finding Title IX
discrimination. Likewise, the language of Title IX does
not provide an applicable exclusion or exemption from
liability where there is both a plausible inference of
gender motivation for the decision and non-discriminatory
reasons for excluding a student from educational program.
C. If this Court imposes a burden upon Title IX
claimants to prove that a disciplinary sanction
in the form of being excluded from educational
programming was “clearly unreasonable under
the circumstances”, it should find that whether the
decision was “clearly unreasonable” or not, is a
question of fact, rejecting the Fifth Circuit’s holding
that it is a question of law.
Reasonableness is generally a question of fact for the
trier of fact. E.g., City of Monterey v. Del Monte Dunes at
Monterey, Ltd., 526 U.S. 697 (1999) (holding in a civil rights

15
action within the meaning of the Seventh Amendment,
sounding in tort, question of whether complained of action
bore a reasonable relationship to its proffered justification
were fact bound, for a jury to decide).
Petitioner questions how the “clearly unreasonable”
test imposed by the Fifth Circuit, if applicable, can
correctly be framed as a question of law when the overall
framework of a Title IX enforcement action is firmly
grounded in subjective questions of plausible inferences,
articulable doubts, and severity of sanction. If a plaintiff
alleging a Title IX claim arising from university discipline
that excludes him or her from educational programming
must show that the exclusion was clearly unreasonable
under the circumstances, a jury should be permitted
to evaluate those circumstances to determine the
reasonableness of this particular form of punishment.
Imposing such a punishment upon a student is conduct
that Congress and this Court deem severe enough to
warrant remediation via a Title IX enforcement claim, if
there is a plausible inference of gender motivation for the
punishment decision.
CONCLUSION
If the decision below is allowed to stand, students in
the Fifth Circuit who experience discipline in the form
of an exclusion from educational programming where
gender motivation is a factor in the disciplinary decision,
will be unable to maintain a viable Title IX enforcement
claim if a court finds the disciplinary decision was not
clearly unreasonable, as a matter of law. Unlike their
counterparts in the Circuits that do not impose the burden
of proof or drastic limitation upon or exemption from
Title IX liability imposed by the Fifth Circuit, they will

16
not be able to secure the remediation that is specifically
contemplated by Congress in passing Title IX and its
amendments, and that this Court has said is broad when
there is a plausible inference of gender discrimination.
If Title IX provides a remedy arising out of university
disciplinary sanctions that exclude students from
educational programming, as the Circuits agree, the
statute should be uniformly applied. The Court should
resolve the conf lict among the Circuits created by
the decision below and provide a certain and uniform
framework for analyzing Title IX enforcement claims in
this context. Accordingly, this Petition should be granted.
Respectfully submitted.
Jonathan T. Suder
Counsel of Record
Jeffrey D. Parks
Friedman, Suder
& Cooke, P.C.
604 East Fourth Street,
Suite 200
Fort Worth, Texas 76102
(817) 334-0400
jts@fsclaw.com
Kenneth B. Chaiken
Robert Chaiken
Chaiken & Chaiken, P.C.
5801 Tennyson Parkway,
Suite 440
Plano, Texas 75024
(214) 265-0250

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED SEPTEMBER 10, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10857
WAYNE M. KLOCKE, INDEPENDENT
ADMINISTRATOR OF THE ESTATE
OF THOMAS KLOCKE,
Plaintiff - Appellant
v.
THE UNIVERSITY OF TEXAS AT ARLINGTON,
Defendant - Appellee
September 10, 2019, Filed
Appeal from the United States District Court
for the Northern District of Texas.
Before OWEN, SOUTHWICK, and HIGGINSON, Circuit
Judges
STEPHEN A. HIGGINSON, Circuit Judge:
This appeal arises out of a Title IX suit for damages
alleging that the University of Texas at Arlington (“UTA”)

2a
Appendix A
discriminated on the basis of sex in disciplining student
Thomas Klocke. The district court granted summary
judgment to UTA. We affirm.
I.
In May 2016, Thomas Klocke and Nicholas Watson
were enrolled in an accelerated two-week summer class
at UTA. On Thursday, May 19, Watson reported to UTA
administrators that he felt threatened by Klocke and would
not return to class if Klocke were present. Watson gave the
following account. Watson and Klocke were sitting next to
each other in class when Klocke typed “gays should die”
on his computer and showed it to Watson. Watson typed
back, “I’m gay.” Klocke verbally called Watson a “faggot.”
Watson told Klocke, “I think you should leave.” Klocke
replied, “You should consider killing yourself.” Klocke
changed seats about an hour later.
Dean of Students Heather Snow referred the matter
to Student Conduct Officer Dan Moore. On May 19,
Moore emailed Klocke to inform him that Moore was
investigating whether Klocke had violated UTA’s Student
Code of Conduct. Moore barred Klocke from attending
or contacting anyone in the class pending further notice.
Klocke responded to Moore denying that he had violated
UTA policy, requesting further information, and asking
to be allowed to attend class. On Friday, May 20, Moore
and Klocke spoke by phone. Over the phone, Klocke did
not provide a counter-narrative or otherwise dispute the
allegations.

3a
Appendix A
Moore met in person with Watson on Friday, May 20.
Moore thought that Watson came across as “genuinely
scared and worried” and “fearful of Klocke.” Watson
mentioned that shortly after the confrontation, while class
was still in session, Watson had emailed the professor
Dwight Long and passed a note to his adjacent classmate.
Moore later confirmed that Watson had relayed the same
version of events to both Long and the classmate.
Moore then met in person with Klocke on Monday,
May 23. Klocke denied making homophobic comments.
According to Klocke, Watson had flirtatiously called
Klocke “beautiful,” and Klocke responded by typing,
“Stop—I’m straight.” Watson continued glancing over at
Klocke until Klocke told him a second time to stop. Klocke
agreed that Watson had told him to leave. He explained
that he later changed seats because Watson was creating
a distraction by laughing and using his phone.
Throughout the May 23 conversation, Moore noticed
that Klocke continually referred to a piece of paper that
“appeared to be a script or outline.” When Moore asked
Klocke follow-up questions, he observed that Klocke
“would consult his script/outline and there were often
long pauses before he would say anything.” Klocke’s
responses, when he gave them, seemed to Moore to “lack[]
any substance.” For instance, Moore recalled that “at
one point Klocke said that he was scared of his accuser.
[Moore] asked why he was scared, and he wasn’t able to
tell me why. He just said he was scared.”

4a
Appendix A
At the end of their conversation, Moore told Klocke
that Klocke could work with classmates on a group project
but that Klocke would remain barred from attending class.
Moore also arranged for Klocke to take an upcoming May
24 exam in a separate space.
On Tuesday, May 24, Moore interviewed the classmate
who had been sitting closest to Watson and Klocke. The
classmate had not overheard the conversation and had
only noticed that “both students looked really tense.”
Contrary to Klocke’s version of events, the classmate
had not noticed Watson laughing or otherwise causing a
distraction. After Klocke left, the classmate had asked
Watson what happened, and Watson had passed over a
note saying, “That guy called me a faggot, told me gays
should die and [illegible] I should kill myself. am [sic]
actually scared.”
Based on these interviews, Moore found Watson
“more believable” and concluded Klocke should be held
responsible for harassment, but not for making threats.
Because Watson was “still very uncomfortable” with
being in class with Klocke, Moore hoped to find a solution
where Klocke could finish the course without attending.
Moore contacted Long, who assured Moore that he could
work one-on-one with Klocke outside of class and adjust
Klocke’s assignments as needed.
On Wednesday, May 25, Moore and Klocke had a
final meeting. Moore explained that he had concluded
his investigation and was holding Klocke responsible
for harassment. Klocke would be placed on disciplinary

5a
Appendix A
probation and would not be allowed to attend class, though
he would be able to complete the course with Long’s
support. He and Watson would be mutually prohibited
from contacting each other. The sanction would appear
on Klocke’s disciplinary record but not on his transcript.
Klocke would have two weeks to appeal the sanction. When
Klocke expressed concern that Watson might “look up
where he live[d],” Moore told Klocke to contact Moore if
he felt he was being harassed or stalked.
For the next week, Klocke continued to do coursework,
albeit without attending class. He completed portions of
the five-part, self-paced final exam, worked on a group
project with classmates, and met one-on-one with Long.
On the evening of June 2, 2016, Klocke killed himself by
shooting himself with a gun he had purchased on May 20.
II.
In April 2017, Wayne Klocke as administrator of
Klocke’s estate filed suit against UTA.1 The estate alleged
that UTA’s disciplinary actions were motivated by gender
bias, in that, for instance, UTA pre-judged Klocke guilty
of harassment based on his gender and sexual orientation.
The estate sought damages for Klocke’s “suffering and
anguish prior to his death.”
1. The estate also filed a defamation claim against Watson,
which is not at issue in this appeal. See Klocke v. Watson, No. 1711320, 936 F.3d 240, 2019 U.S. App. LEXIS 25343, 2019 WL 3977545,
at *1 (5th Cir. Aug. 23, 2019).

6a
Appendix A
In April 2018, UTA moved for summary judgment.
The district court granted the motion, concluding that
the estate had failed to identify any evidence supporting
an inference of intentional discrimination necessary to
sustain a private Title IX claim for damages. The district
court entered final judgment in favor of UTA, and the
estate timely filed a notice of appeal.
III.
We review de novo the district court’s grant of
summary judgment. Summary judgment is appropriate
“if the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56. “When
the nonmovant bears the burden of proof at trial, the
movant may merely point to an absence of evidence, thus
shifting to the non-movant the burden of demonstrating
by competent summary judgment proof that there is an
issue of material fact warranting trial.” McClendon v.
United States, 892 F.3d 775, 781 (5th Cir. 2018) (quotation
omitted). “All reasonable inferences must be viewed in
the light most favorable to the party opposing summary
judgment, and any doubt must be resolved in favor of
the non-moving party.” Id. (quotation omitted). “A nonmovant will not avoid summary judgment by presenting
speculation, improbable inferences, or unsubstantiated
assertions.” Lawrence v. Fed. Home Loan Mortg. Corp.,
808 F.3d 670, 673 (5th Cir. 2015) (quotation omitted).
Title IX provides that no person “shall, on the basis
of sex, be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under any

7a
Appendix A
education program or activity receiving Federal financial
assistance.” 2 20 U.S.C. § 1681(a). Title IX is “enforceable
through an implied private right of action,” and “monetary
damages are available in the implied private action.”
Gebser v. Lago Vista Indep. Sch. Dist., 524 U.S. 274,
281, 118 S. Ct. 1989, 141 L. Ed. 2d 277 (1998). A plaintiff
may obtain damages under Title IX “where the funding
recipient engages in intentional conduct that violates the
clear terms of the statute.” Davis v. Monroe Cty. Bd.
of Educ., 526 U.S. 629, 642, 119 S. Ct. 1661, 143 L. Ed.
2d 839 (1999). The plaintiff must show that the school’s
response was “clearly unreasonable in light of the known
circumstances.” Id. at 648. “In an appropriate case,
there is no reason why courts, on a motion to dismiss,
for summary judgment, or for a directed verdict, could
2. As a threshold matter, UTA argues that Klocke, as a matter
of law, was never deprived of an educational opportunity or benefit
under Title IX. We reject that view. A student barred from attending
class is literally “excluded from participation in” an “education
program.” 20 U.S.C. § 1681. Here, it is undisputed that Klocke was
not allowed to attend 9 out of 11 class sessions. The record does not
indicate that class recordings were ever made available or even
offered to Klocke. The record does show that although Long offered
to meet Klocke one-on-one to discuss class material, Long had
limited availability over the short summer intercession period. These
facts indicate that Klocke experienced a “concrete, negative effect”
on his “ability to receive an education.” Davis v. Monroe Cty. Bd. of
Educ., 526 U.S. 629, 654, 119 S. Ct. 1661, 143 L. Ed. 2d 839 (1999).
UTA cites Doe v. Valencia College, 903 F.3d 1220, 1227 (11th
Cir. 2018), for the proposition that “unenrolling a student from a class
is not a Title IX violation.” That is not what the Eleventh Circuit
held. Rather, the Eleventh Circuit concluded that a student’s Title
IX claim failed because there was no genuine issue of fact about the
correctness of the challenged disciplinary proceeding.

8a
Appendix A
not identify a response as not ‘clearly unreasonable’ as a
matter of law.” Id. at 649.
The Supreme Court has “consistently interpreted Title
IX’s private cause of action broadly to encompass diverse forms
of intentional sex discrimination.” Jackson v. Birmingham Bd.
of Educ., 544 U.S. 167, 183, 125 S. Ct. 1497, 161 L. Ed. 2d 361
(2005). Thus, a school’s “deliberate indifference” to a student’s
claims of sexual harassment by a classmate may amount to
an intentional violation of Title IX. Davis, 526 U.S. at 643-46.
“[R]etaliation against individuals because they complain of sex
discrimination” is also “intentional conduct that violates the
clear terms of the statute.” Jackson, 544 U.S. at 183 (citing
Davis, 526 U.S. at 642).
The Second Circuit has further observed that
“[p]laintiffs attacking a university disciplinary proceeding
on grounds of gender bias can be expected to fall generally
within two categories.” Yusuf v. Vassar Coll., 35 F.3d 709,
715 (2d Cir. 1994). Those in the first category argue that
the disciplinary proceeding had an “erroneous outcome”
and that “gender bias was a motivating factor behind
the erroneous finding.” Id. Those in the second allege
“selective enforcement,” i.e., that “regardless of the
student’s guilt or innocence, the severity of the penalty
and/or the decision to initiate the proceeding was affected
by the student’s gender.” Id. Both parties embrace this
framework, and on appeal, the estate relies on erroneous
outcome, selective enforcement, and retaliation. 3
3. The estate’s opening brief did not discuss its theories of
deliberate indifference or archaic assumptions. Those arguments
are waived. See, e.g., Procter & Gamble Co. v. Amway Corp., 376
F.3d 496, 499 n.1 (5th Cir. 2004).

9a
Appendix A
A. Erroneous Outcome
A plaintiff alleging an erroneous outcome must point
to “particular facts sufficient to cast some articulable
doubt on the accuracy of the outcome of the disciplinary
proceeding”—for instance, “a motive to lie on the part of
a complainant or witnesses, [or] particularized strengths
of the [disciplined student’s] defense.” Yusuf, 35 F.3d at
715. “If no such doubt exists based on the record before the
disciplinary tribunal, the claim must fail.” Id. (emphasis
added). The plaintiff must also demonstrate a “causal
connection between the flawed outcome and gender bias.”
Id.
i.

Erroneous outcome

The estate argues that Moore’s disciplinary decision
was based on an “acknowledged lack of evidence.” The
estate relies on Moore’s statements in May 24 emails to
Snow that (1) the adjacent classmate “just heard the same
line, ‘I think you should leave’ but nothing else. I’m not
sure I have enough here to keep [Klocke] out of class”; and
(2) “Bottom line is both are giving very different accounts.
I find [Watson’s] account more believable, but I do not have
anything to corroborate it.”
Viewed in the light most favorable to the estate,
Moore’s May 24 statements do express reservations
about finding Klocke responsible and further restricting
him from class. But the statements are insufficient to
raise a triable issue as to erroneous outcome, because it
is uncontradicted that Moore considered the following

10a
Appendix A
in his decision.4 First, Moore knew that Watson told the
same, consistent story in a contemporaneous in-class
email to Long, also a contemporaneous note passed to a
classmate, and then again in after-class emails and inperson discussions with Long, Snow, and Moore. Second,
Moore perceived Watson to be credibly fearful of Klocke at
their May 20 meeting. 5 Third, when Moore met Klocke on
May 23, he saw that Klocke relied on a written script and
was unable to meaningfully answer follow-up questions.
Fourth, Moore was told by the adjacent classmate that the
classmate did not notice Watson behaving in a distracting
manner as Klocke had alleged.6 Fifth, Moore’s common
4. The estate makes a sweeping attack on Moore’s litigation
declaration for providing “after-the-fact explanations about what
[he] supposedly felt or understood.” But the estate does not identify
any material contradictions or inconsistencies in Moore’s sworn
statements. The estate cannot avoid summary judgment by making
speculative attacks on Moore’s credibility. Lawrence, 808 F.3d at
673. Rule 56(d) allows a nonmovant to show that “it cannot present
facts essential to justify its opposition,” and a district court may then
allow the nonmovant “time to obtain affidavits or declarations or to
take discovery,” however, the estate did not seek additional time to
obtain further discovery. Fed. R. Civ. P. 56(d). Instead, the day after
UTA filed its motion for summary judgment, the estate filed its own
motion for partial summary judgment on Title IX liability.
5. Long and Moore also found Watson to be credible. Long, for
instance, noticed that after the incident, Watson was “pacing and
trying to get my attention,” and “sensed that whatever [Watson] had
to say was urgent” due to his “large eyes and stiff body language.”
Snow also recalled that Watson “appeared visibly upset, nervous,
and shaken” and was “talking fast.”
6. The estate attacks this evidence as hearsay, since the
classmate did not himself submit a declaration to support UTA’s

11a
Appendix A
sense suggested to him that a person whose flirtation
is rejected would not tell the other person to leave and
then fabricate and widely circulate a story about being
threatened by that person. Sixth, Moore’s investigation
uncovered nothing supportive of Klocke’s account, and
the estate in this litigation does not identify any leads
that Moore should have or could have pursued. These
facts show, contrary to the estate’s interpretation of
Moore’s May 24 statements, that Moore made a finding
of responsibility after developing a meaningful record.
ii.

Gender bias motivating erroneous outcome

Even if Moore erred in finding Klocke responsible
for harassment, the estate has not identified evidence
that that gender bias affected Moore’s investigation and
conclusion. The estate argues that gender bias can be
inferred because Watson, who is gay, received preferential
treatment over Klocke, who was straight. We need not
resolve whether under Title IX, discrimination on the
basis of sexual orientation counts as discrimination on
the basis of sex, because no such bias can be inferred. See
Wittmer v. Phillips 66 Co., 915 F.3d 328, 330 (5th Cir. 2019)
(affirming grant of summary judgment to employer based
on transgender employee’s failure to establish a prima
facie case of discrimination under Title VII).
summary judgment motion. But Moore’s recollection of the
classmate’s statement was not offered to prove the truth of the
matter asserted. Rather, the statement was offered as proof of
Moore’s due diligence before concluding that Klocke was responsible
for harassment.

12a
Appendix A
First, UTA had reasonable and non-discriminatory
reasons to exclude Klocke, rather than Watson, from class.
See Davis, 526 U.S. at 649 (conduct in Title IX suit for
damages must be “clearly unreasonable”). Klocke’s alleged
conduct was derogatory and physically threatening;
Watson’s alleged conduct was not, even if it made Klocke
uncomfortable.
The same goes for Moore’s decision to not initiate
misconduct proceedings against Watson. The estate
suggests that Watson sexually harassed Klocke by
making “unwelcome sexual advances,” but per UTA
policy, conduct “intentionally directed towards a specific
individual” is not considered sexual harassment unless it
“unreasonably interfer[es] with that individual’s education
. . . or participation in University activities, or creat[es]
an intimidating, hostile, or offensive environment.” Moore
reasonably concluded that a single comment that someone
was “beautiful,” accompanied by glancing, would not
amount to sexual harassment.
Finally, the estate takes issue with Moore’s decision
to treat Watson’s allegations as allegations of harassment,
rather than sexual harassment. According to the estate,
by declining to investigate Klocke for sexual harassment,
UTA deprived Klocke of valuable procedural protections
such as a hearing before a neutral decisionmaker. This is
not persuasive, because Moore reasonably concluded that
Watson alleged only harassment. Insults like “faggot”
and comments like “gays should die” squarely fit within
UTA’s definition of harassment, defined in relevant part
as “hostile or offensive speech” such as “threats, insults,

13a
Appendix A
epithets, ridicule, [or] personal attacks” “often based on
the victim’s appearance, personal characteristics or group
membership.” UTA defined sexual harassment as “[u]
nwelcome conduct of a sexual nature,” and it defined verbal
sexual harassment to include “propositions to engage in
sexual activity,” “gratuitous comments . . . of a sexual
nature about clothing or bodies,” “gratuitous remarks
about sexual activities,” “persistent, unwanted sexual or
romantic attention,” “subtle or overt pressure for sexual
favors,” “exposure to sexually suggestive visual displays,”
or “deliberate, repeated humiliation or intimidation based
upon sex.” It was reasonable for Moore to decide that
sexual harassment was not at issue, in part because most
of UTA’s examples focused on conduct that was explicitly
romantic or sexually suggestive.7
7. The estate makes much of Snow’s pre-suit deposition
statement that Klocke’s alleged comments constituted “sexual
harassment” as defined in the Department of Education’s 2011 “Dear
Colleague” Letter. See United States Department of Education,
Office of the Assistant Secretary for Civil Rights, Dear Colleague
Letter, (2011), available at http://www2.ed.gov/print/about/offices/
list/ocr/letters/colleague-201104.html . Snow’s deposition statement
has little bearing on whether Moore reasonably declined to
investigate Klocke for sexual harassment under UTA policy. First,
the “Dear Colleague” letter’s definition of sexual harassment is
not identical to UTA’s definition. The estate never discusses the
overlap between the two definitions—in fact, the estate does not
refer to the “Dear Colleague” letter anywhere in its briefs. Second,
the estate does not dispute that under UTA policy, it is not Snow’s
job to assess what charges should be brought, nor did Snow offer
such an assessment to Moore here. Snow left Moore free to conduct
his own investigation, and Moore independently concluded that the
allegations were potentially threats or harassment, but not sexual
harassment under UTA policy.

14a
Appendix A
In sum, UTA’s disciplinary decisions were reasonable
and justifiable on non-discriminatory grounds. An
inference of gender bias in these circumstances would
necessarily be speculative. 8
B. Selective Enforcement
A selective enforcement claim needs to allege that
either punishment or the decision to initiate enforcement
proceedings was motivated by gender bias. In support of a
selective enforcement claim, the estate has identified nine
female students who were investigated for misconduct but
not prohibited from attending a class, either on an interim
or a permanent basis. Considering these cases in the light
most favorable to the estate, none permits the inference
that similarly situated female students were treated more
favorably than Klocke. See Keelan v. Majesco Software,
Inc., 407 F.3d 332, 345 (5th Cir. 2005) (affirming grant of
summary judgment in Title VII case based on failure to
identify sufficiently similar comparators). In seven cases,
nothing indicated that the complainant shared a class with
the accused. For one of the remaining two cases, UTA’s
investigation began after the shared class had already
concluded. In the last case, the accused student called her
professor a “bitch,” and when the professor asked UTA to
8. Relatedly, in the Title VII context, once a defendant provides
a “legitimate, nondiscriminatory reason for its decision,” the burden
shifts to the plaintiff to show that the reason is pretextual. Davis
v. Chevron U.S.A., Inc., 14 F.3d 1082, 1087 (5th Cir. 1994). Our
court has not yet settled whether Title VII frameworks of proof are
directly applicable to Title IX claims of gender bias. See Arceneaux
v. Assumption Par. Sch. Bd., 733 F. App’x 175, 178-79 (5th Cir. 2018).

15a
Appendix A
investigate, the professor had already barred the accused
from returning to class.
Significantly, the estate does not dispute UTA’s
statistics about the rate at which UTA holds men and
women responsible for threat or harassment. Those
statistics do not show disparities between accused men
and women. In the three years preceding Klocke’s and
Watson’s confrontation, UTA investigated 32 harassment
complaints, 7 against women and 25 against men. 5 out
of 7 women were found responsible (71%) and 15 out of 25
men were found responsible (60%). UTA also investigated
17 threat complaints, 5 against women and 12 against
men. 3 out of 5 women were found responsible (60%) and
8 out of 12 men (67%) were found responsible. As to Moore
himself, Moore had previously investigated 24 students,
12 men and 12 women, for non-academic offenses. He
found 9 out of 12 women responsible (75%) and 10 out of 12
men responsible (83%). Nothing about this data suggests
systemic gender bias; indeed, men and women at UTA are
found responsible for threat or harassment at remarkably
similar rates.
C. Retaliation
The estate argues that UTA held Klocke responsible
for harassment in retaliation for Klocke’s allegation that
he was sexually harassed by Watson. However, the estate
cites no additional evidence to support a retaliation claim,
beyond the evidence already discussed above.

16a
Appendix A
IV.
For the foregoing reasons, the district court’s
judgment is AFFIRMED.

17a
Appendix B
APPENDIX B — MEMORANDUM
OPINION AND
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF TEXAS, FORT WORTH DIVISION,
FILED JUNE 7, 2018
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
NO. 4:17-CV-285-A
WAYNE M. KLOCKE, INDEPENDENT
ADMINISTRATOR OF THE ESTATE
OF THOMAS KLOCKE,
Plaintiff,
v.
THE UNIVERSITY OF TEXAS
AT ARLINGTON, et al.,
Defendants.
June 7, 2018, Decided;
June 7, 2018, Filed
MEMORANDUM OPINION AND ORDER
Came on for consideration the motion of plaintiff,
Wayne M. Klocke, Independent Administrator of the
Estate of Thomas Klocke, for partial summary judgment
and the cross-motion of defendant University of Texas at
Arlington (“UTA”) for summary judgment. The court,

18a
Appendix B
having considered the motions, the responses, the replies,
the record, including the summary judgment evidence, and
applicable authorities, finds that defendant’s motion should
be granted and that plaintiff’s motion should be denied.
I.
Plaintiff’s Claims
Wayne M. Klocke (“Wayne”) is the father of Thomas
Klocke (“Thomas”), who was a student at UTA. The
operative pleading is plaintiff’s amended complaint filed
April 11, 2018. Doc.1 117. In it, plaintiff alleges:
On or about May 19, 2016, during a class at UTA,
Nicholas Watson (“Watson”), a gay male student, made
unwelcome sexual advances and overtures to Thomas, a
heterosexual male student. Disappointed by the rejection,
or perhaps fearing that Thomas might complain to UTA
about Watson’s behavior, Watson contacted Heather
Snow (“Snow”), associate vice president of student
affairs and dean of students, who helped him draft a
complaint against Thomas. Doc. 117 ¶ 3. Snow, aided by
Daniel Moore (“Moore”), selectively implemented and
enforced an alternate grievance resolution process that
was deliberately indifferent to UTA’s Title IX obligations
and Thomas’s rights thereunder. Id. ¶ 4. Thomas’s rights
to attend class, to communicate with anyone in class, and
to enter UTA’s business building were suspended. Id. ¶ 5.
1. The “Doe. ” reference is to the number of the item on the
docket in this action.

19a
Appendix B
From May 19, 2016, through June 2, 2016, Thomas suffered
the denial of benefits and privileges of an educational
opportunity, program and activity that he was eligible to
receive. UTA’s misconduct caused harm so severe that it
led to Thomas’s death by suicide on June 2, 2016. Id. ¶ 7.
Plaintiff asserts a cause of action for violation of Title
IX, which provides:
No person in the United States shall, on the
basis of sex, be excluded from participation
in, be denied the benefits of, or be subjected
to discrimination under any educational
program or activity receiving Federal financial
assistance . . .
20 U.S.C. § 1681(a). Doc. 117 ¶¶ 85-100.
II.
Grounds of the Motions
Plaintiff seeks judgment that UTA violated Thomas’s
rights under Title IX as a matter of law and leaves for trial
the issues of causation and damages. Doc. 122. UTA, in
turn, seeks judgment that plaintiff is not entitled to any
relief. Doc. 118.
By order signed May 18, 2018, the court, consistent
with the authorization contained in Fed. R. Civ. P. 56(f)
(2), notified the parties that it was considering granting
UTA’s motion for summary judgment on the ground that

20a
Appendix B
the summary judgment record as a whole could not lead a
rational trier of fact to find that the conduct of UTA about
which plaintiff complains caused, or was a significant
factor in causing, the death of Thomas. Doc. 133. The court
gave each party an opportunity to respond to the order
and to the response of the other party. The responses and
supporting materials have been filed, Docs. 140-43, and,
for reasons discussed hereinafter, there is no need for the
filing of replies.
III.
Applicable Summary Judgment Principles
Rule 56(a) of the Federal Rules of Civil Procedure
provides that the court shall grant summary judgment on
a claim or defense if there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(a); Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247, 106 S. Ct. 2505, 91 L. Ed. 2d
202 (1986). The movant bears the initial burden of pointing
out to the court that there is no genuine dispute as to any
material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323,
325, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986). The movant
can discharge this burden by pointing out the absence of
evidence supporting one or more essential elements of the
nonmoving party’s claim, “since a complete failure of proof
concerning an essential element of the nonmoving party’s
case necessarily renders all other facts immaterial.” Id. at
323. Once the movant has carried its burden under Rule
56(a), the nonmoving party must identify evidence in the
record that creates a genuine dispute as to each of the

21a
Appendix B
challenged elements of its case. Id. at 324; see also Fed. R.
Civ. P. 56(c) (“A party asserting that a fact . . . is genuinely
disputed must support the assertion by . . . citing to
particular parts of materials in the record . . . .”). If the
evidence identified could not lead a rational trier of fact to
find in favor of the nonmoving party as to each essential
element of the nonmoving party’s case, there is no genuine
dispute for trial and summary judgment is appropriate.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 587, 597, 106 S. Ct. 1348, 89 L. Ed. 2d 538 (1986).
In Mississippi Prot. & Advocacy Sys., Inc. v. Cotten, the
Fifth Circuit explained:
W here the record, including aff idav its,
interrogatories, admissions, and depositions
could not, as a whole, lead a rational trier of
fact to find for the nonmoving party, there is
no issue for trial.
929 F.2d 1054, 1058 (5th Cir. 1991).
The standard for granting a motion for summary
judgment is the same as the standard for rendering
judgment as a matter of law. 2 Celotex Corp., 477 U.S. at
323. if the record taken as a whole could not lead a rational
trier of fact to find for the non-moving party, there is no
genuine issue for trial. Matsushita, 475 U.S. at 597; see
also Mississippi Prot. & Advocacy Sys., 929 F.2d at 1058.
2. In Boeing Co. v. Shipman, 411 F.2d 365, 374-75 (5th Cir. 1969)
(en bane), the Fifth Circuit explained the standard to be applied in
determining whether the court should enter judgment on motions
for directed verdict or for judgment notwithstanding the verdict.

22a
Appendix B
IV.
Facts Established by Summary Judgment Evidence 3
Watson and Thomas were students in a class that met
from 8:00 a.m. to 11:45 a.m., Monday through Friday, from
May 18 to June 2, 2016. On May 19, the second day of
class, the two sat next to each other in an auditorium-style
lecture hall. During class, Watson posted to Facebook:
“The guy sitting next to me just typed into his computer
‘ga;ys should die.’ Then told me I was a ‘fa**ot’ and that I
should ‘kill myself.’“ Doc. 124 at 182. At 8:53 a.m., Watson
emailed the professor who was teaching the class, saying
(in pertinent part):
During the course of this morning’s class,
I sat next to a student who made me feel
massively uncomfortable. He typed into his
computer search bar “gays should die” and
then proceeded to call me a “fa**ot” and that
I “should consider killing myself.” I do not feel
safe in the class at this given time given the
threatening presence this student has provided.

3. The court notes that the final pages of plaintiffs brief in
response to UTA’s motion for summary judgment are devoted to a
series of conclusory objections regarding UTA’s summary judgment
evidence. Doc. 131 at 48-49. As is its custom, the court is giving the
summary judgment evidence the weight it deserves. In this regard,
the court notes that plaintiff’s own list of undisputed facts contains
many erroneous citations, as well as misleading and unsupported
statements. Doc. 123 at 5-24.

23a
Appendix B
Doc. 129 at 108. Watson approached the professor,
Professor Dwight Long (“Long”), after class and Long
perceived that whatever Watson had to say was urgent.
Id. at 95. Long read the email when he returned to his
office and reported the comments Watson had made in
person and through the email to Jean Hood, the Title IX
coordinator for UTA. Id.
Watson went to see Snow around lunchtime on May
19. He appeared visibly upset, nervous, and shaken and
talked very fast. He said that he feared for his safety
and did not want to be in class with Thomas. Doc. 129 at
115-16, ¶ 10. At Snow’s request, Watson typed an email
addressed to her explaining what had happened. Id. at
116, ¶ 11; 165. Snow forwarded the email to Moore. Id, at
5, ¶ 7. Snow advised that it would be appropriate as an
interim measure to forbid Thomas from attending class
and asked Moore to draft a letter to that effect. Id. at 6,
¶ 9. Moore sent Thomas a letter stating that he must cease
all contact and communications with students in the class
and that Thomas was prohibited from attending class and
being in the business building until further notice. Id. at
22. Moore also sent a letter to Watson, telling him not to
contact Thomas. Id. at 6, 10. Moore did not consider that
the statements Thomas allegedly made fit within UTA’s
definition of sexual harassment. He considered them to
be in the nature of threats or harassment generally. Id.
at 6-7, ¶¶ 13-17.
At 3:56 p.m. on May 19, 2016, Thomas sent an email
that Moore received the next morning. Id. at 6, ¶ 12. In
the email, Thomas stated that he had received a letter

24a
Appendix B
saying he was involved in an alleged violation; that he
was confused by the allegations because he did not violate
the Student Code of Conduct; and that he was requesting
further information. Id. at 48.
On May 20, Moore spoke with Thomas by phone. Id.
at 7-8, ¶ 18. Thomas stated that he “knew what this was
in reference to” and he did not dispute the allegations.
Thomas’s demeanor was stoic and unemotional; nothing
about the call made Moore think Thomas was a victim
or was being framed by Watson. Thomas did not protest
being out of class and said that they could talk more at a
meeting scheduled for the following Monday. Id.
At 1021 a.m. on May 20, 2016, Thomas bought a
handgun at Academy Sports & Outdoors in Grapevine.
Doc. 124 at 239.
On May 20, Moore met with Watson, who explained
that he had made a comment about privilege in class and
that Thomas had typed “gays should die” on his web
browser and showed it to Watson. Watson wrote in his
own search bar, “I’m gay.” Thomas then acted like he was
yawning with his hand over his mouth and said, “Well,
then, you’re a faggot.” Watson told Thomas he should leave.
Thomas replied, “You should consider killing yourself.”
Thomas packed up and left the room, returning about 15
minutes later and taking a different seat. Watson said
he passed his notebook to Blake Lankford (“Blake”), a
student seated next to Thomas’s empty seat with notes
regarding what happened. Doc. 129 at 8, ¶ 21. After class,
Watson told Long what had happened. Id. ¶ 22. Watson

25a
Appendix B
made very clear that he was scared of Thomas and did not
feel comfortable being in class with him. Watson seemed
genuinely worried and scared and Moore found him to
be credible. Id. Moore spoke to Long, who verified what
Watson had reported. Id. at 9, ¶ 24.
On May 23, Moore met with Thomas. Wayne came
with Thomas and spoke with Moore, expressing concern
that Thomas be allowed back into the class given that it
was a short semester. Wayne left and Moore spoke with
Thomas alone. Id. ¶¶ 25-26. Moore advised that Wayne
could meet with them but Thomas would have to sign a
release, which Thomas acknowledged but did not request.
Id. ¶ 27. Thomas told Moore he did not know who made
the accusations against him, but that the student sitting
next to him had said Thomas was “beautiful.” Thomas
responded on his web browser, “Stop--I’m straight.”
The student typed into his own web browser, “I’m gay.”
Thomas said the student kept glancing at him and Thomas
told him to stop. Thomas denied saying, “gays should die,”
“you’re a faggot,” or “you should kill yourself.” Thomas
said the other student was typing into his phone and
laughing and Thomas moved across the room because of
the distraction. Id. at 9-10, ¶ 28. Moore asked Thomas a
number of questions, but Thomas kept referring to a sheet
of paper he had with him, which appeared to be a script
or outline. There were often long pauses before Thomas
responded and when he did, the responses were without
substance. Moore found Thomas’s version of events
suspect. Id. at 10, ¶ 32. In every conversation with Moore,
Thomas’s tone was matter-of-fact and calm, lacking any
emotion, even when he said he was scared of his accuser.
Id. at 11, ¶ 33.

26a
Appendix B
On May 24, Moore met with Blake, who said that he
heard Watson tell Thomas that he should leave. Blake
looked over and saw that Watson and Thomas looked really
tense. After about 30 minutes, Thomas left. Id. ¶ 37. Blake
leaned over and asked Watson what had happened. Watson
slid over his calendar with a note of what Thomas allegedly
said to Watson. Blake did not observe Watson laughing
or causing a distraction. Id. ¶ 38. Thomas returned to
the classroom about ten minutes later and took a seat
on the other side of the room. After class, when Watson
approached Long, Thomas was looking at Watson. Id. ¶ 37.
On the evening of May 24, Thomas emailed Moore,
saying that he felt victimized, but also stating, “I am the
one who moved to alleviate any tension.” Id. at 12, ¶ 40; 90.
Moore considered the statement to be inconsistent with
Thomas’s claim that he had moved because Watson was
laughing and causing a distraction. Id. at 12, ¶ 40. Moore
responded to the email that evening asking Thomas to
meet with him the next day and telling Thomas that he had
spoken to Long and Long would meet with Thomas oneon-one for any instruction for the class and that Thomas
would still work with his group to complete projects. Id. at
90. Thomas responded, “Thanks for your work and talking
to professor Long. I really appreciate it.” Id.
On May 25, Moore met with Thomas to explain his
findings and discipline. He reiterated that Watson and
Thomas were to have no contact. Thomas could meet
one-on-one with Long and continue working with his class
group on their project. At no time did Thomas protest the
decision or ask any questions as to how Moore arrived

27a
Appendix B
at his decision. Id. at 13, ¶ 45. Moore explained that the
decision could be appealed and the appeal process and
that Thomas had 14 days to appeal. Id. at 14, ¶ 46. Thomas
asked whether the disciplinary record would be available
to employers, graduate schools, or law schools. Moore told
him that it was not on an academic transcript and that few
employers would request it. In any event, Thomas would
have to sign a release before the disciplinary record could
be provided. Id.
Moore and Long sought to make arrangements so
that Thomas could still obtain the benefits of the course
and obtain course credit despite not being allowed in the
classroom. Id. at 96, ¶ 17. Thomas took the first exam in
the business office on May 24 and received a grade of
66. Id.; at 112; Doc. 124 at 117. Thomas took the second
exam on or around June 1 and received a grade of 74. Doc.
129 at 96, ¶ 17; 112. On May 31, Long met with Thomas
and Long assured Thomas that he was part of the class
even though he could not attend; that Long had Thomas
“covered”; and that Thomas would get the same grade as
every other member of his team on class participation,
team presentation, and simulation. Id. at 96, ¶ 18. The
meeting lasted approximately fifteen minutes. Id. ¶ 19.
Long kept trying to explain the final exam to Thomas,
who cut him off, saying something to the effect of “I got
this.” Id. at 97, ¶¶ 21-22. Thomas finished only the first
two of five parts of the final exam, but Long gave him a
grade of 75. Id. ¶¶ 23, 25. Thomas submitted the last of his
answers at 2:14 p.m. on June 2. Id. ¶ 25. At approximately
5:20 on June 2, Thomas committed suicide by shooting
himself with the gun he had purchased on May 20. Doc.
124 at 279, 281, 239.

28a
Appendix B
Moore made the decision as to the potential policy
violations he would investigate. No one told him what he
should investigate. He was the sole decision-maker. He
determined that Thomas was responsible for harassment
but not making a threat. He did not feel pressure from the
government or any administrators at UTA in making his
decision. Doc. 129 at 15, ¶ 50. He investigated the case in
the same manner he investigates all cases. He met with
witnesses, reviewed documents, weighed the credibility
of the witnesses, and reached a conclusion. Id. ¶ 51.
V.
Analysis
In this day and age, it should go without saying that
when one student says to another, “people like you should
die” or “you should kill yourself,” the school must take
such statements seriously.4 It is not the role of the court
to second-guess the decisions of school administrators.
Plummer v. Univ. of Houston, 860 F.3d 767, 772-73 (5th
Cir. 2017)(citing Davis ex rel. LaShonda D. v. Monroe
Cty. Bd. of Educ., 526 U.S. 629, 648, 119 S. Ct. 1661, 143
L. Ed. 2d 839 (1999)); Doe v. Univ. of St. Thomas, 240 F.
Supp. 3d 984, 989-90 (D. Minn. 2017).
As stated, supra, Title IX provides that no person
4. That one student bought a gun the day after the incident
underscores the seriousness of the situation. Although there is no
evidence that UTA had knowledge of the purchase or that Thomas
ever considered harming Watson, the fact is that the weapon was
obtained and could have been used against a fellow student.

29a
Appendix B
shall, on the basis of sex, be excluded from or denied
the benefits of any education program receiving federal
financial assistance. The Supreme Court has recognized
an implied private right of action for violation of Title IX.
Cannon v. Univ. of Chicago, 441 U.S. 677, 99 S. Ct. 1946, 60
L. Ed. 2d 560 (1979) . To establish a claim under Title IX,
a plaintiff must establish that an educational institution
receiving federal assistance intentionally discriminated on
the basis of the plaintiff’s sex. Fort v. Dallas Indep. Sch.
Dist., 82 F.3d 414, 1996 WL 167072, at *3 (5th Cir. 1996).
As another district court has noted, private challenges
to disciplinary proceedings under Title IX generally
manifest themselves under four broad theories: (1)
plaintiffs claiming an erroneous outcome of a disciplinary
proceeding; (2) plaintiffs claiming selective enforcement
of university procedures to students of different sexes;
(3) plaintiffs claiming deliberate indifference to sexual
harassment or assault on campus; and (4) plaintiffs
claiming a university’s actions were based on archaic
assumptions about the roles and behavior of men and
women. 5 Pacheco v. St. Mary’s Univ., No. 15-CV-1131
(RCL), 2017 U.S. Dist. LEXIS 94510, 2017 WL 2670758,
at *11 (5th Cir. June 20, 2017). And, retaliation against
a person who has complained of sex discrimination is
another form of intentional discrimination encompassed by
5. Although UTA seeks judgment on the archaic assumptions
theory, Doe. 119 at 44-46, and plaintiff makes a response thereto,
Doc. 131 at 38-39, it is clear that plaintiff is not asserting that theory
as a basis for recovery. See Does. 117 & 123. The court is satisfied
that the theory simply does not apply to the facts of this case. See
Pederson v. Louisiana State Univ., 213 F.3d 858 (5th Cir. 2000).

30a
Appendix B
Title IX’s private cause of action. Jackson v. Birmingham
Bd. of Educ., 544 U.S. 167, 173, 125 S. Ct. 1497, 161 L. Ed.
2d 361 (2005).
In this case, no matter the theory, the evidence simply
does not support a finding that defendant intentionally
discriminated against Thomas on the basis of his sex. At
best, sex played a tangential role. See Sanches v. CarrolltonFarmers Branch Indep. Sch. Dist., 647 F.3d 156, 165 (5th
Cir. 2011). The undisputed facts are that one student
made comments that another perceived as threatening.
The threatened student cried out immediately via social
media to his friends and by email to his professor during
the middle of class. After class, the threatened student
spoke to the professor, who perceived that the threatened
student was genuinely upset. The threatened student
met with Snow, who also perceived that he was genuinely
upset and afraid. Although Snow may have perceived
that the comments were of a sexual nature, she did not
impose her view on Moore, who was asked to investigate
the matter. Moore recognized that the perceived threat
should be immediately addressed and issued the letters
forbidding the student who allegedly made the comments
from attending class. He then undertook an investigation
that led him to conclude that the comments had actually
been made. The only other witness to the exchange
corroborated that the threatened student told the other he
should leave, which he did; when the witness asked what
had happened, the threatened student showed him his
notes; the student who allegedly made the threat watched
as the threatened student spoke with the professor after
class; and, the witness did not see the threatened student

31a
Appendix B
laughing or causing a distraction. Moore did not believe
the student who allegedly made the threat when he said
that the threatened student had propositioned him. And,
the statements of that student were inconsistent with his
claim of innocence, i.e., that he knew what the meeting
was about (that is, why he had been notified to meet with
Moore) and that he had moved to avoid the tense situation.
Moore made arrangements for the student who made the
threat to be able to complete the class. That student did not
protest or demand a hearing or appeal from the decision.
He expressed gratitude for Moore’s help; he met with the
professor (whose help he acted like he was not interested
in obtaining) and received assurance that he would not
be penalized for being unable to attend class; he took the
tests and continued to work with his group. Ultimately,
for no known reason, the student committed suicide.
To establish an erroneous outcome theory, plaintiff
must show that Thomas was innocent and wrongly found
to have committed the offense and that gender bias was
a motivating factor behind the erroneous finding. Yusuf
v. Vassar College, 35 F.3d 709, 715 (2d Cir. 1994). Here,
although plaintiff repeatedly argues that Thomas was
punished based solely on Watson’s uncorroborated account,
the evidence does not support the argument. Rather, the
only reasonable conclusion to be drawn from the evidence
is that Watson’s account is corroborated. Plaintiff simply
disagrees, which is not enough to show actual innocence.
See Haidak v. Univ. of Mass. at Amherst, No. 14-CV30049-MAP, 299 F. Supp. 3d 242, 2018 U.S. Dist. LEXIS
38695, 2018 WL 1243956 (D. Mass. Mar. 9, 2018); Pacheco
v. St. Mary’s Univ., No. 15-CV-1131 (RCL), 2017 U.S. Dist.

32a
Appendix B
LEXIS 94510, 2017 WL 2670758 (W.D. Tex. June 20, 2017);
Doe v. Purdue Univ., 281 F. Supp. 3d 754 (N.D. Ind. 2017).
Moreover, he has no evidence to raise a genuine issue of
material fact as to gender bias. See Yusuf, 35 F.3d at 715.
In a selective enforcement claim, a plaintiff alleges
that, regardless of guilt or innocence, the decision to
initiate proceedings6 or the penalty imposed was affected
by plaintiff’s gender. Yusuf, 35 F.3d at 715; Pacheco,
2017 WL 2670758, at *18. In other words, the plaintiff
must show that a person of the opposite sex was in
circumstances sufficiently similar to plaintiff’s and was
treated more favorably by defendant. Doe v. Univ. of the
South, 687 F. Supp. 2d 744, 756 (E.D. Tenn. 2009).
UTA has provided evidence of other student misconduct
investigations from 2013 to 2016. Doc. 120, Ex. 15. Plaintiff
has not shown that any female in circumstances similar
to Thomas’s was treated more favorably. See Gudgel v.
Del Mar College, No. 2:16-CV-513, 2018 U.S. Dist. LEXIS
8130, 2018 WL 472829, at *2 (S.D. Tex. Jan. 17, 2018). In
fact plaintiff has not pointed to any comparator in nearly
identical circumstances. See Lee v. Kansas City S. Ry.,
574 F.3d 253, 259-60 (5th Cir. 2009). And, even if he had
identified such a comparator, he has not shown that the
same decision-maker was involved. Lopez v. Kempthorne,
684 F. Supp. 2d 827, 857 (S.D. Tex. 2010)(comparators are
rarely similarly-situated where different decision-makers
are involved).
6. Here the complaint was initiated by Watson; thus, there is no
selective enforcement claim based on initiation of the investigation.
Doe v. Purdue Univ., 281 F. Supp. 3d 754, 784 (N.D. Ind. 2017).

33a
Appendix B
With regard to deliberate indifference, plaintiff
asserts two different theories. First, he says that
UTA failed to follow its own policies and procedures in
investigating Watson’s complaint. Second, he says that
UTA was deliberately indifferent to Thomas’s claim of
harassment by Watson. Doc. 131 at 19. Doc. 117 at 33-35,
¶¶ 92-94; 35, ¶ 97. Neither is supported.
The Supreme Court has never held that there is an
implied right of action under Title IX for violation of
administrative requirements. K.S. v. Northwest Indep.
Sch. Dist., 689 F. App’x 780, 784 (5th Cir. 2017); Sanches,
647 F.3d at 169. But even if there is such a right, mere
failure to follow policy does not establish deliberate
indifference. Sanches, 647 F.3d at 169. Rather, the school’s
response, or lack thereof, to the harassment must be
clearly unreasonable in light of the known circumstances.
Id. at 167. The bar is high and neither negligence nor
mere unreasonableness is enough. Id. A defendant is not
deliberately indifferent where it takes some action. K.S.,
689 F. App’x at 794.
Although plaintiff disagrees with the outcome, the
record reflects that UTA did consider Thomas’s allegations
against Watson and determine them to be incredible.
And, even if UTA ignored Thomas’s allegations, UTA is
not liable for damages unless its deliberate indifference
subjected Thomas to harassment. “That is, the deliberate
indifference must, at a minimum, ‘cause [students] to
undergo’ harassment or ‘make them liable or vulnerable’
to it.” Davis v. Monroe County Bd. of Educ., 526 U.S. 629,
644-45, 119 S. Ct. 1661, 143 L. Ed. 2d 839 (1999). There

34a
Appendix B
is no evidence that UTA’s actions caused Thomas to be
subjected to harassment by Watson. Rather, UTA directed
Watson to have no contact with Thomas and cautioned
him that failure to abide by the restriction could result in
disciplinary action against him. Doc. 120 at 480.
Further, and in any event, Thomas’s allegations
against Watson were insufficient to amount to a sexual
harassment complaint meriting investigation under
Title IX. Specifically, the alleged harassment was not
“so severe, pervasive, and objectively offensive that it
effectively barred [Thomas’s] access to an educational
opportunity or benefit.” Sanches, 647 F.3d at 165. Only
claims involving pervasive and widespread conduct are
actionable; a single incident is not enough. Carmichael v.
Galbraith, 574 F. App’x 286, 289-90 (5th Cir. 2014). See
also Doe v. Miami Univ., 882 F.3d 579, 591 (6th Cir. 2018);
Haidak v. Univ. of Mass., 2018 U.S. Dist. LEXIS 38695,
2018 WL 1243956, at *21.
Finally, plaintiff maintains that UTA retaliated against
Thomas because he complained of sex discrimination.
The Supreme Court has recognized that retaliation
against a person because that person has complained
of sex discrimination is another form of intentional sex
discrimination encompassed by Title IX’s private cause
of action. Jackson, 544 U.S. at 173. “[W]hen a funding
recipient retaliates against a person because he complains
of sex discrimination, this constitutes intentional
discrimination’ on the basis of sex,’ in violation of Title
IX.” Id. at 174. Here, the facts do not fit the cause of action.

35a
Appendix B
First, Thomas did not complain of sex discrimination.
At most, he reported one minor incident of harassment.7
Further, Thomas was already under investigation for
allegedly having threatened Watson and discipline had
already been imposed before Thomas ever mentioned that
Watson had propositioned him. Thus, there is no causal
connection between Thomas’s report and the adverse
action. See Gudgel, 2018 U.S. Dist. LEXIS 8130, 2018
WL 472829 (summary judgment granted where discipline
had been imposed before the plaintiff filed his Title IX
complaint). And, as UTA notes, after Thomas made the
allegations about Watson, the sanction against Thomas
was actually modified in his favor to allow him to work
with his group and be in the business school building and
take exams. While not dispositive, this tends to show that
UTA did not retaliate against Thomas for his report. Doe
v. Salisbury Univ., 123 F. Supp. 3d 748, 769-70 (D. Md.
2015).
Plaintiff has not shown that UTA’s actions were
clearly unreasonable in light of the known circumstances.
Sanches, 647 F.3d at 167. UTA is entitled to judgment as
a matter of law.

7. Despite plaintiff’s characterization, it is clear that Thomas
did not independently complain about Watson’s actions, but rather
made the allegations in defense to the accusations made by Watson.

36a
Appendix B
VI.
Supplemental Filings 8
Upon reading the May 31, 2018 briefs filed by plaintiff,
Doc. 142, and UTA, Doc. 140, the court realized that it
had been hasty in issuing the May 18, 2018 order raising
under the authority of Fed. R. Civ. P. 56(f)(2) of the
Federal Rules of Civil Procedure an issue as to causation
of Thomas’s death. As plaintiff pointed out in his brief,
he “does not seek a finding in this case by the trier of
fact that the conduct of UTA about which he complains
caused or was a significant factor in causing the death
of Thomas.” Doc. 142 at 1. Thus, there is no need for the
briefing on that issue and the court has not considered any
of the documents filed in response to the May 18 order in
reaching the conclusions expressed in this memorandum
opinion and order. For that reason, the court is ordering
that such documents be unfiled and stricken from the
record of this action.
VII.
Order
The court ORDERS that the court’s May 18, 2018
order be, and is hereby, vacated and set aside, and that
the May 31, 2018, briefs and appendices, Docs. 140-43,
8. The court notes that the parties have also filed a number of
motions to exclude expert testimony. Does. 145-58. These motions
are moot in light of the rulings made herein.

37a
Appendix B
be, and are hereby, unfiled and stricken from the record
of this action.
The court further ORDERS that plaintiff’s motion
for partial summary judgment be, and is hereby, denied.
The court further ORDERS that UTA’s motion for
summary judgment be, and is hereby, granted; that
plaintiff take nothing on his claims against UTA; and that
such claims be, and are hereby, dismissed.
SIGNED June 7, 2018.
/s/ John McBryde
JOHN McBRYDE
United States District Judge

38a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT, FILED OCTOBER 20, 2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 18-10857
WAYNE M. KLOCKE,
INDEPENDENT ADMINISTRATOR
OF THE ESTATE OF THOMAS KLOCKE,
Plaintiff- Appellant,
v.
THE UNIVERSITY OF TEXAS AT ARLINGTON,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of Texas
ON PETITION FOR REHEARING
Before OWEN, SOUTHWICK, and HIGGINSON, Circuit
Judges.

39a
Appendix C
PER CURIAM:
is

IT IS ORDERED that the petition for rehearing
denied
ENTERED FOR THE
COURT:
			
UNITED STATES
CIRCUIT JUDGE

